No. 19-1116
IN THE

Supreme Court of the United States
LINKEDIN CORPORATION,

Petitioner,

v.
HIQ LABS, INC.,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
PETITIONER’S SUPPLEMENTAL BRIEF
E. JOSHUA ROSENKRANZ
ORRICK HERRINGTON &
SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
ERIC A. SHUMSKY
ORRICK HERRINGTON &
SUTCLIFFE LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8400

DONALD B. VERRILLI, JR.
Counsel of Record
JONATHAN S. MELTZER
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001
(202) 220-1100
donald.verrilli@mto.com
JONATHAN H. BLAVIN
ROSEMARY T. RING
NICHOLAS D. FRAM
MARIANNA Y. MAO
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

Counsel for Petitioner

1
ARGUMENT
Like Van Buren v. United States, 593 U.S. ___
(2021), this case addresses the proper interpretation of
Section 1030(a)(2) of the Computer Fraud and Abuse
Act of 1986 (CFAA). Van Buren definitively construed
“exceeds authorized access” in Section 1030(a)(2), but
the Court did not address the “without authorization”
clause of that provision, which it characterized as “distinct.” See Van Buren, slip op. at 12-13 & n.8. As the
Petition in this case explains, there is widespread uncertainty in the lower courts regarding the meaning of
“without authorization” in Section 1030(a)(2), see Pet.
15-20, and its proper application is an issue of manifest and increasing importance, see Pet. 27-32. The
Court should grant the Petition now to provide complementary and equally needed guidance as to the
meaning of “without authorization.”
1. Section 1030(a)(2) subjects to civil or criminal liability anyone who “intentionally accesses a computer
without authorization or exceeds authorized access”
and thereby obtains information from the computer, so
long as that computer is used in or affects interstate
commerce. See 18 U.S.C. § 1030(a)(2), (e)(2), (e)(6);
Van Buren, slip op. at 2. As Van Buren explained, Section 1030(a)(2)
specif[ies] two distinct ways of obtaining information unlawfully. First, an individual
violates the provision when he “accesses a
computer
without
authorization.”
§1030(a)(2). Second, an individual violates
the provision when he “exceeds authorized
access” by accessing a computer “with authorization” and then obtaining information
he is “not entitled so to obtain.”
§§1030(a)(2), (e)(6).

2
Van Buren, slip op. at 12-13. Van Buren construed the
“exceeds authorized access” prong of the provision, and
in doing so, it relied principally on the definition of
that term in Section 1030(e)(6). See slip op. at 5-12.
This Court had no cause to address the “without authorization” clause in the statute, as both “parties
agree[d] that Van Buren ‘access[ed] a computer with
authorization.’” Van Buren, slip op. at 5. And unlike
“exceeds authorized access,” the term “without authorization” is not defined in the statute, thereby limiting
the applicability of Van Buren’s textual analysis to the
question of what constitutes “authorization” under the
statute. The Court did note, however, that its approach means that liability under both the “without
authorization” and “exceeds authorized access” clauses
“stems from a gates-up-or-down-inquiry—one either
can or cannot access a computer system, and one either
can or cannot access certain areas within the system.”
Id. at 13. The Court then explicitly declined to say
what qualifies as a gate. Instead, it stated: “For present purposes, we need not address whether this inquiry turns only on technological (or ‘code-based’) limitations on access, or instead also looks to limits contained in contracts or policies.” Id. at 13 n.8.
2. This Petition addresses the precise question left
open by the Court in Van Buren. LinkedIn put gates
around its servers by employing technical “code-based”
measures to prevent hiQ from scraping data (which
hiQ circumvented via bots) and sending a cease-anddesist letter to hiQ, thereby expressly revoking any
“authorization” hiQ had to access LinkedIn’s computers. See Pet 10. Van Buren expressly left open
whether these methods of denying and revoking authorization, or any other methods of doing so, qualify

3
as “gates-down” under Section 1030(a)(2), thus rendering hiQ’s massive scraping of data “without authorization.”
There is a pressing need for an answer to that question. Websites employ myriad strategies that might or
might not qualify as “gates,” from code-based
measures such as password requirements and
LinkedIn’s technical blocking measures, to express
communications such as cease-and-desist letters, to
the contracts and policies mentioned in Van Buren.
Even in the time during which this Petition has been
pending, lower courts have continued to take divergent
approaches in determining whether circumvention of
these potential “gates” qualifies as accessing a website
“without authorization. See, e.g., Sandvig v. Barr, 451
F. Supp. 3d 73, 85 n.2 (D.D.C. 2020) (noting that because individualized cease-and-desist letters were not
sent in that case, “the Court need not decide whether
they would constitute a revocation of authorization
and thereby make any further visits by the recipients
to the otherwise public portions of LinkedIn a CFAA
violation”); SMH Enterprises, LLC v. Krispy Krunchy
Foods, LLC, No. 20-cv-2970, 2021 WL 1226411, at *3
(E.D. La. Apr. 1, 2021) (termination of business relationship “ended any authorization to access its servers
that would have arisen by virtue of the former relationship between the companies” which “adequately
alleged that [plaintiff] accessed its servers ‘without authorization.’”); Motogolf.com, LLC v. Top Shelf Golf,
LLC, No. 20-cv-00674, 2021 WL 1147149, at *5 (D.
Nev. Mar. 25, 2021) (Plaintiff’s argument that it revoked access to its website through the cease-and-desist letters fails because the letters do not affect the
“public” website analysis); Brodsky v. Apple Inc., 445
F. Supp. 3d 110, 129 (N.D. Cal. 2020) (“In situations
where a plaintiff clearly revokes access to a party and

4
not simply the means, manner, or method for such access, that party may be liable under the CFAA.”).
Clarifying the meaning of “without authorization,”
just as Van Buren construed “exceeds authorized access,” has thus become even more necessary since the
Petition was filed 15 months ago. As the Petition explains, the ability of Internet users to control their
data and protect their privacy has never been more at
risk, and the consequences of mass scraping of publicfacing websites are extraordinarily harmful for the
hundreds of millions of users of such websites. See Pet.
27-28 (describing Cambridge Analytica’s harvesting of
Facebook user information and Clearview AI’s
largescale scraping of user information from publicfacing websites to create a facial recognition database
sold to private companies and law enforcement); Pet.
Reply 9; see also, e.g., Jonathan Vanian, Data From
Half a Billion LinkedIn Users Has Been Scraped and
Put Online, Fortune Magazine (April 8, 2021),
https://fortune.com/2021/04/08/linkedin-user-databreach-leak-hackers/ (noting that data scraped from
500 million LinkedIn users was being sold online to
hackers, who could use it for phishing attempts and
other bad acts); 200 million Facebook, Instagram, and
LinkedIn Users’ Scraped Data Exposed, Security Magazine (Jan. 12, 2021), https://www.securitymagazine.com/articles/94327-million-facebook-instagramand-linkedin-users-scraped-data-exposed (describing
a data breach at a Chinese start-up that contained
scraped personal identifiable information from 214
million social media users).
In view of the metastasizing threats to the privacy
of individual information stored on website servers
and the paucity of legal options other than the CFAA
to combat those threats, any benefit to be gained by
further percolation of the question presented is more

5
than outweighed by the pressing need for a clear and
universally applicable rule. Indeed, the consequence
of uncertainty in the lower courts is particularly troubling. Because the Internet is ubiquitous, the same
conduct involving the same website could be a violation of the CFAA in some parts of the country but not
others. See Pet. 4. Companies like LinkedIn require
the clarity and stability that only this Court can provide as to how they can safeguard their users’ data and
privacy. Just as the Court in Van Buren resolved an
important circuit conflict regarding the meaning of
Section 1030(a)(2), the Court should do the same in
this case, providing a clear, nationwide rule as to what
conduct qualifies as accessing information from the Internet “without authorization.” 18 U.S.C. 1030(a)(2).

6
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
E. JOSHUA ROSENKRANZ
ORRICK HERRINGTON &
SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
ERIC A. SHUMSKY
ORRICK HERRINGTON &
SUTCLIFFE LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8400

DONALD B. VERRILLI, JR.
Counsel of Record
JONATHAN S. MELTZER
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001
(202) 220-1100
donald.verrilli@mto.com
JONATHAN H. BLAVIN
ROSEMARY T. RING
NICHOLAS D. FRAM
MARIANNA Y. MAO
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

Counsel for Petitioner

June 7, 2021

